No. 20-618
3n tlje

Supreme Court of tlje {Hmteb i§>tate£
Kelly Georgene Routten,
Petitioner,
v.

John Tyler Routten,
Respondent.
On Petition for Writ of Certiorari to the
Supreme Court of North Carolina
PETITION FOR REHEARING

Kelly Georgene Routten
701 Occoneechee Drive
Fuquay Varina, NC 27526
(404) 922-7876
Kellyhroutten@yahoo.com
Petitioner Pro Se

■J

\

1

QUESTION PRESENTED
An additional question is to address substantial
grounds not previously submitted in the original
petition. The Due Process Clause forbids States from
removing a minor child from a parent’s custody without
hearing on that parent’s fitness. Stanley v. Illinois, 405
U.S. 645, 658 (1972). The Due Process Clause forbids
termination of parental rights without clear and
convincing evidence Santosky v. Kramer, 455 U.S. 745,
768-769 (1982). Due Process requires an opportunity
to be heard before a liberty interest is restricted.
Mathews v. Eldridge, 424 U.S. 319, 331-334 (1976).
North Carolina General Statute § 50-13.5(i) and the
North Carolina Supreme Court’s application of the
statute creates mechanisms where a natural parent’s
rights can be constructively terminated without
providing required constitutional protections. N.C.
Gen. Stat. § 50-13.5(i); Routten v. Routten, 372 N.C.
571, 843 S.E.2d 154 (2020). Questions [2-3] are in
addition to question [1] in the original Petition for a
Writ of Certiorari:
2. Where a State denies a natural parent custody
and visitation with children, does due process require
the parent be provided a meaningful opportunity to be
heard before denying custody and visitation?
3. Does a State violate due process where parental
rights are constructively terminated while not
providing the required constitutional protections?

11

TABLE OF CONTENTS
QUESTION PRESENTED
TABLE OF AUTHORITIES

1
.

IV

INTRODUCTION

1

STATEMENT OF THE CASE

1

REASONS TO GRANT THE PETITION

6

I. Petitioner was Deprived of Her Liberty Interest
as A Natural Parent and Denied Due Process
When Her Children Were Removed from Her
^Custody and Visitation Without a Meaningful
Opportunity to Be Heard......................................

6

II. North Carolina General Statute § 50-13.5(i) and
The North Carolina Supreme Court
Interpretation of That Statute Create a
Mechanism that Effectively Allows Constructive
Termination of Parental Rights Without the
Constitutional Protections Required for
Termination of Parental Rights...........................

8

A. The Effect of North Carolina’s actions has
been equivalent to a constructive termination
of parental rights while not providing the
constitutional protections that termination
proceedings require..........................................

9

Ill

B. The constructive termination of parental
rights cannot be easily countered in North
Carolina based on the best interest of the
children standard as applied by the North
Carolina courts, in violation of the liberty
interest of the 14th Amendment of the U.S.
Constitution....................................................... 11
CONCLUSION

12

APPENDIX
Appendix J - N.C. Gen. Stat. § 50-13.2

120a

IV

TABLE OF AUTHORITIES
CASES
Dechkovskaia v. Dechkovskaia,
232 N.C. App. 350, 754 S.E.2d 831 (2014)

9

Everette v. Collins,
176 N.C. App. 168, 625 S.E.2d 796 (2006)

9

Mathews v. Eldridge,
424 U.S. 319 (1976)......................................

6,7

Matter of E.B.,
375 N.C. 310, 847 S.E.2d 666 (2020) ....

8, 9

Romulus v. Romulus,
215 N.C. App. 495, 714 S.E. 2d (2011). . .

8, 9

Santosky v. Kramer,
455 U.S. 745 (1982)......................................

6

Troxel v. Granville,
539 U.S. 57 (2000)........................................

6

CONSTITUTION AND STATUTES
U.S. Const, amend. XIV

6, 11

N.C. Gen. Stat. § 50-13.2(e)

10

N.C. Gen. Stat. § 50-13.5(i)

8, 9, 11

1
INTRODUCTION
This Petition for Rehearing is submitted within 25
days from December 11, 2020 and based on substantial
grounds not previously submitted. Petitioner is Pro Se
for this filing because Counsel of Record is pro bono
and not available.
The original Petition for a Writ of Certiorari focused
on conflict among the various states whether a natural
parent could be denied visitation without a
determination of unfitness.
This Petition for a
Rehearing supplements the original issue addressing
due process concerns not previously submitted. The
Petitioner is the victim of domestic violence and abuse
but the court gave full legal arid physical custody of the
children to Respondent, the abusive parent, with the
right to determine if Petitioner would have visitation.
A key element of domestic abuse is control, and the
court gave Respondent full control of Petitioner’s
visitation. Petitioner hasn’t had physical or visual
contact with her children for almost five years, and the
restrictive order effectively terminates her parental
rights without affording the constitutional protections
that are required for termination of parental rights.
The family unit has been destroyed by the North
Carolina courts. The Respondent has attempted to
break the mother’s bond with her daughter and son
with serious heart issues.
STATEMENT OF THE CASE
The following information supplements the
Statement of the Case in the original Petition for a
Writ of Certiorari:

2

Petitioner was the victim of domestic violence and
obtained a Domestic Violence Protective Order (DVPO)
on 25 July 2014, beginning this case. Petitioner was
thrown head-first into a glass top table, hitting the
table, a chair and the floor, resulting in a concussion.
She could have been killed in front of her two-year-old
son. Petitioner and Respondent were married in 2002
and Respondent filed for divorce in September 2015.
Petitioner had two children with Respondent, a
daughter H.B. born in 2004 and a son B.C. born in
2012. B.C. was their miracle baby. Petitioner had a
miscarriage in 2011. It took the doctors a while to
realize it was twins and she was still pregnant with
one. It was determined the baby had significant heart
issues. The day after B.C. was born Duke surgeons
removed his heart and rebuilt it. About two years
later, during visitation, Petitioner saw indications of
issues with B.C. and as a result he underwent another
open-heart surgery to repair a valve in February 2015.
It’s been almost 5 years since the Petitioner has
even seen her children. Petitioner doesn’t know what
her children look like today, her daughter was 12 and
her son was 3 going on 4. Her daughter is a teenager
and her son, a heart baby, has spent more time away
from her than with her. B.C. still needs his heart valve
replaced with a mechanical one. Petitioner is an
exhausted mom who’s fought all the way up to the
Supreme Court. God gave Petitioner the right to have
children but the man who gave her a concussion took
that away for almost 5 years with domestic violence
because he has full custody and Petitioner none.

3
Based on misrepresentations of Respondent at the
hearing on 13 August 2014, Petitioner waived the
DVPO and entered into a custody agreement which
gave Petitioner physical custody, joint legal custody,
and Respondent alternate weekend visitation and a
weekly dinner visitation. Respondent filed a complaint
for custody and equitable distribution nine days earlier,
which was not provided to Petitioner until after she
waived the DVPO.
Petitioner was diagnosed with multiple sclerosis
(MS) in 2001, was asymptomatic for the duration of
this action.
In the psychological evaluation of
Petitioner in 2014, the psychologist made no diagnosis
but recommended additional tests for conditions
Petitioner “might” have since she had MS and
recommended a neuropsychological evaluation but
never spoke with Petitioner’s primary care physician or
neurologist. The neurologist testified at the custody
trial in September 2015 he didn’t consider her a
candidate for a neuropsychological evaluation and
preferred an MRI, but the court ordered it anyway.
The additional conditions suggested by the court
appointed psychologist were ruled out by an
independent psychologist prior to trial.
After the trial on custody, alimony, attorney fees,
child support and a contempt action against
Respondent in September 2015, the court orally
ordered physical custody to Respondent in October
2015. In December 2016, the court issued a temporary
custody order giving physical custody during the school
year to Respondent, physical custody during the
summer to Petitioner, alternate weekend visitation to

4
Petitioner during the school year, joint legal custody
with Respondent having the final say, and a rotating
holiday schedule. The order required Petitioner’s
neuropsychological evaluation by June 2016.
Petitioner was never provided with the reason why
she lost her children, other than to see a made-up
diagnosis for her MS. Petitioner was accused of hiding
test results by the opposing attorney. It was stated it
had been completed in a motion submitted in a motion
for continuance. The test came back better than
anyone expected with nothing below average and
several above. Petitioner had no reason to hide that
test.
Petitioner had
difficulty obtaining the
neuropsychological evaluation since it’s not medically
necessary. She finally obtained the evaluation on 21
April 2016. A three-hour temporary custody hearing
was to be held on 5 April 2016.
Petitioner was
prepared with evidence and the status of the
neuropsychological evaluation, but instead the court
held an in-chambers conference with just lawyers and
Petitioner excluded. Due to finances, her attorney only
represented her on a limited basis and hadn’t talked
recently before the judge went in chambers. No
testimony or evidence was taken, and Petitioner had no
opportunity to be heard, but the court issued a new
order on 27 April 2016 with additional requirements
for the neuropsychological evaluation. Petitioner fully
complied with the original order but had no
opportunity to provide input on the new order.
Petitioner attempted a second evaluation to comply
with the new order, but the provider refused based on

5
lack of medical necessity. The next opportunity to be
heard was the 4 August hearing. Petitioner obtained
the neuropsychological evaluation report on 3 August
for the 4 August hearing and requested a continuance
on 29 July 2016 so opposing counsel could review the
report and requested a protective order. On 3 August
Petitioner filed another request for continuance, for a
protective order, and for return of the children since
Respondent had kept them beyond visitation. At the 4
August hearing, as soon as the court found out
Petitioner had the evaluation on 21 April 2016, without
hearing any explanation from Petitioner, the judge
threatened Petitioner with criminal contempt and
refused to take the evaluation or allow it to be
discussed by Petitioner or her attorney during that
hearing. Opposing counsel asked questions about the
process and the evaluation but was not a meaningful
opportunity to be heard. The court removed custody
and visitation from Petitioner. She hasn’t had an
opportunity to be heard on the evaluation or to submit
the evaluation as evidence. The neuropsychological
evaluation counters the allegations made by the court
appointed psychologist and the related findings the
court used to remove custody and visitation,
The
neuropsychological evaluation report was later sent to
the court per instructions and immediately sealed by
the court. A permanent custody order was issued in
December 2016 and amended in March 2017.
Petitioner is a good mom and doesn’t know what she
did wrong to lose custody.
This action has a lengthy procedural history due to
Petitioner’s attempts to regain custody of her children.

6
REASONS TO GRANT THE PETITION
In addition to the reasons set forth in the original
Petition for a Writ of Certiorari, the following reasons
are submitted:
I. Petitioner was Deprived of Her Liberty
Interest as A Natural Parent and Denied Due
Process When Her Children Were Removed
from Her Custody and Visitation Without a
Meaningful Opportunity to Be Heard.
A natural parent has a fundamental liberty interest
in the care, custody, and nurturing of their child.
Santosky v. Kramer, 455 U.S. 745, 758-759 (1982). A
government decision depriving an individual of a
liberty interest implicates procedural due process
requirements of the Fourteenth Amendment. Mathews
v. Eldridge, 424 U.S. 319, 332 (1976). Due process
protects a parent’s fundamental right to the care,
custody, and control of their minor children. Troxel v.
Granville, 539 U.S. 57, 66 (2000). The fundamental
requirement of due process is the opportunity to be
heard at a meaningful time and manner. Mathews,
supra, at 333.
At a custody hearing on 4 August 2016, the primary
focus of the hearing was a neuropsychological
evaluation the court required for Petitioner. Without
giving Petitioner an opportunity to explain, when the
court judge was told the evaluation was done on April
21, 2016, the court became angry and told the
Petitioner and her attorney he wouldn’t hear from
them on that matter that day. The judge wouldn’t take
a copy of the neuropsychological evaluation at that

7
time. When he received it, he immediately sealed the
report.
The court held a condensed permanent
custody hearing, during which the Petitioner and her
attorney could not discuss the neuropsychological
evaluation and the circumstances surrounding it.
Respondent’s counsel asked questions about the
evaluation, but not Petitioner’s counsel, so that was not
a meaningful opportunity to be heard. At the hearing,
the court issued a Memorandum of Judgment removing
all custody and visitation from Petitioner. App. C,
65a-67a. The provisions regarding stipulation and
agreement weren’t on the handwritten Memorandum
that day and weren’t agreed to by Petitioner or her
attorney. App. C, 66a-67a. A permanent custody order
was issued on December 9, 2016. App. D, 68a-82a. No
evidence or testimony was taken at the March 1, 2017
hearing and she had no opportunity to be heard.
Petitioner had no meaningful opportunity to be
heard on the issue directly affecting custody prior to
custody and visitation being removed. The Petitioner
has not had that opportunity, over five, years later.
Due Process requires an opportunity to be heard before
a liberty interest is restricted. Mathews v. Eldridge,
424 U.S. 319, 331-334 (1976).
Petitioner was denied due process when her custody
and visitation of her children was removed with no
opportunity to be heard.
The North Carolina Court of Appeals held this issue
was waived and dismissed. App. B, 38a-39a. The
Court of Appeals, focused the procedural due process
argument on the April 5, 2016 hearing. Id. at 38a. The
denial of the opportunity to be heard when Petitioner

8
lost custody and visitation was the August 4, 2016
hearing, not the April hearing. The Court of Appeals
noted the constitutional issue was not raised in the
Amended Rule 59 motion, the Amended Motion
supplemented rather than replaced the original motion,
which did address the procedural due process. Id. at
39a. The North Carolina Supreme Court didn’t address
this issue due to the Court of Appeals decision.
II. North Carolina General Statute § 50-13.5(i)
and The North Carolina Supreme Court
Interpretation of That Statute Create a
Mechanism that Effectively Allows
Constructive Termination of Parental Rights
Without the Constitutional Protections
Required for Termination of Parental Rights.
The North Carolina Supreme Court held that,
between two natural parents, a court must apply “best
interest of the child” to determine custody and
visitation. Routten v. Routten, App. A, 12a. For
termination of parental rights, the North Carolina
Supreme Court applies the standard the government
may only take a child from a natural parent where the
parent is unfit, or the parent’s conduct is inconsistent
with his or her protected status. Matter of E.B., 375
N.C. 310, 847 S.E.2d 666,. 670-671(2020).
For denial of visitation, a court must make written
findings of fact that the parent being denied is unfit or
visitation is not in the best interest of the child. N.C.
Gen. Stat. § 50-13.5(i), App. F, 106a. The standard of
review for a court finding related to custody is whether
the findings of fact are supported by competent
evidence. Romulus v. Romulus, 215 N.C. App. 495,

9
498, 714 S.E. 2d 308, 311(2011). Abuse of discretion is
required to overturn a child custody decision. Euerette
v. Collins, 176 N.C. App. 168, 171, 625 S.E.2d 796, 798
(2006). The court’s findings of fact are binding on
appeal as long as competent evidence supports them,
despite the existence of evidence to the contrary.
Dechkovskaia v. Dechkovskaia, 232 N.C. App. 350, 352,
754 S.E.2d 831, 834 (2014).
The standard for
termination of parental rights cases is clear, cogent,
and convincing evidence. Matter of E.B., supra, at 672673.
A. The Effect of North Carolina’s actions has
been equivalent to a constructive
termination of parental rights while not
providing the constitutional protections
that termination proceedings require.
Under the North Carolina Statute, a parent’s
custody and visitation may be removed either by a
showing that the parent is unfit or in the best interest
of the children. N.C. Gen. Stat. § 50-13.5(i) (2019). In
this case, the North Carolina Supreme Court upheld
the best interest of the children standard as
appropriate. Routten v. Routten, 372 N.C. 571, 578,
843 S.E.2d 154, 159 (2020). The permanent custody
orders are extremely restrictive on Petitioner. The
Petitioner’s parental rights have effectively been
terminated without affording Petitioner the procedural
safeguards required for the termination of parental
rights. Petitioner hasn’t had personal, face to face, or
visual contact with her two children for four years and
five months. She last saw her daughter when she was
twelve, now sixteen. She last saw her son when he was

10
almost four, now eight. Respondent has full legal and
physical custody and has the right to determine
visitation of Petitioner. Petitioner requests visitation
frequently including birthdays, holidays, Halloween,
and other occasions, which consistently is refused. The
Amended Permanent Custody Order denies Petitioner
the right to attend medical appointments of the
children without the written permission of the
Respondent which he won’t grant. Petitioner’s son was
born with congenital heart failure. The day after he
was born, surgeons removed his heart and rebuilt it
and then repaired a valve in additional open-heart
surgery over two and a half years later. The primary
surgeon believed he would require additional surgery
around age five, which hasn’t occurred, and Petitioner
cannot attend the appointments to provide her input or
ask questions. Petitioner was her son’s primary
caretaker and there are no findings supporting the
prohibition from doctor appointments,
Another
provision of the order allows law enforcement to
enforce any provision of the order, so Petitioner is
effectively prohibited from any situation where she
may be in proximity of the children without prior
permission, which won’t be granted. Respondent’s
attorney has threatened trespass or other legal action
if Petitioner leaves gifts for the children on
Respondent’s front steps. The order granted the
Petitioner two phone calls a week to the children. She
is not allowed Skype or Facetime or other video access
by the Respondent.
Electronic or telephonic
communication is not a substitute for visitation or
custody under North Carolina law. N.C. Gen. Stat.
§ 50-13.2(e). Petitioner’s parental rights have been

i

11
constructively terminated by the North Carolina
courts.
B. The constructive termination of parental
rights cannot be easily countered in North
Carolina based on the best interest of the
children standard as applied by the North
Carolina courts, in violation of the liberty
interest of the 14th Amendment of the U.S.
Constitution.
Creating a finding that custody or visitation is not
in the best interest of the children is difficult to attack.
In North Carolina, if any competent evidence supports
a finding, the finding is sufficient even with substantial
contrary evidence. It can only be overturned by
showing abuse of discretion.
It’s hard to show
supporting evidence is incompetent when the judge
doesn’t specify what evidence supports the finding. It
is impossible to determine what the court used to
decide Petitioner’s custody was not in the best interest
of the children. Under this standard, the flimsiest
evidence could support a finding that custody and
visitation is not in the best interest of the children
without recourse to attack it due to the arbitrary abuse
of discretion standard. Finding that visitation is not in
the best interest of the children is the basis for the
equivalent of termination of Petitioner’s parental
rights. Under N.C. Gen. Stat. § 50-13.5(i), this
minimal finding is sufficient to deny custody and
visitation, thereby circumventing the standards for
termination of parental rights and violating due
process rights. Because of the abuse of discretion
standard, neither appellate court looked at whether

12
there were facts sufficient to totally deny custody and
visitation even though a due process issue was raised
in both courts.
CONCLUSION
The Petition for Rehearing should be granted.
Respectfully submitted,
Kelly Georgene Routten
701 Occoneechee Drive
Fuquay Varina, NC 27526
(404) 922-7876
Kellyhroutten@yahoo. com
Petitioner Pro Se

i

t

i

13
CERTIFICATION
The foregoing is restricted to the grounds specified
in 44.2 S. Ct. R. and it is presented in good faith and
not for delay.
Respectfully submitted
s/ Kelly Georgene Routten
Kelly Georgene Routten
701 Occoneechee Drive
Fuquay Varina, North Carolina
(404) 922-7876
Kellyhroutten@y ahoo. com
Petitioner Pro Se

APPENDIX

i

1

«
''

120a

APPENDIX J
N.C. Gen. Stat. § 50-13.2
§ 50-13.2. Who entitled to custody; terms of custody;
visitation rights of grandparents; taking child out of
State; consideration of parent’s military service.
An order for custody of a minor child entered
(a)
pursuant to this section shall award the custody of
such child to such person, agency, organization or
institution as will best promote the interest and
welfare of the child. In making the determination, the
court shall consider all relevant factors including acts
of domestic violence between the parties, the safety of
the child, and the safety of either party from domestic
violence by the other party. An order for custody must
include written findings of fact that reflect the
consideration of each of these factors and that support
the determination of what is in the best interest of the
child. Between the parents, whether natural or
adoptive, no presumption shall apply as to who will
better promote the interest and welfare of the child.
Joint custody to the parents shall be considered upon
the request of either parent.
An order for custody of a minor child may grant
(b)
joint custody to the parents, exclusive custody to one
person, agency, organization, or institution, or grant
custody to two or more persons
agencies,
organizations, or institutions. Any order for custody
shall include such terms, including visitation, as will
best promote the interest and welfare of the child. If

121a
the court finds that domestic violence has occurred, the
court shall enter such orders that best protect the
children and party who were the victims of domestic
violence, in accordance with the provisions of G.S. 50B3(al)(l), (2), and (3). If a party is absent or relocates
with or without the children because of an act of
domestic violence, the absence or relocation shall not be
a factor that weighs against the party in determining
custody or visitation. Absent an order of the court to
the contrary, each parent shall have equal access to the
records of the minor child involving the health,
education, and welfare of the child.
An order for custody of a minor child may
(bl)
provide visitation rights for any grandparent of the
child as the court, in its discretion, deems appropriate.
As used in this subsection, “grandparent” includes a
biological grandparent of a child adopted by a
stepparent or a relative of the child where a substantial
relationship exists between the grandparent and the
child. Under no circumstances shall a biological
grandparent of a child adopted by adoptive parents,
neither of whom is related to the child and where
parental rights of both biological parents have been
terminated, be entitled to visitation rights.
(b2) Any order for custody, including visitation, may,
as a condition of such custody or visitation, require
either or both parents, or any other person seeking
custody or visitation, to abstain from consuming
alcohol and may require submission to a continuous
alcohol monitoring system, of a type approved by the
Division of Adult Correction and Juvenile Justice of the
Department of Public Safety, to verify compliance with

122a
this condition of custody or " visitation. Any order
pursuant to this subsection shall include an order to
the monitoring provider to report any violation of the
order to the court and each party to the action. Failure
to comply with this condition shall be grounds for civil
or criminal contempt.
An order for custody of a minor child may
(c)
provide for such child to be taken outside of the State,
but if the order contemplates the return of the child to
this State, the judge may require the person, agency,
organization or institution having custody out of this
State to give bond or other security conditioned upon
the return of the child to this State in accordance with
the order of the court.
If, within a reasonable time, one parent fails to
(d)
consent to adoption pursuant to Chapter 48 of the
General Statutes or parental rights have not been
terminated, the consent of the other consenting parent
shall not be effective in an action for custody of the
child.
An order for custody of a minor child may
provide for visitation rights by electronic
communication. In granting visitation by electronic
communication, the court shall consider the following:
(e)

Whether electronic communication is in the
(1)
best interest of the minor child.
Whether equipment to communicate by
(2)
electronic means is available, accessible, and affordable
to the parents of the minor child.

123a
Any other factor the court deems appropriate in
(3)
determining whether to grant visitation by electronic
communication.
The court may set guidelines for electronic
communication, including the hours in which the
communication may be made, the allocation of costs
between the parents in implementing electronic
communication with the child, and the furnishing of
access information between parents necessary to
facilitate electronic communication. Electronic
communication with a minor child may be used to
supplement visitation with the child. Electronic
communication may not be used as a replacement or
substitution for custody or visitation. The amount of
time electronic communication is used shall not be a
factor in calculating child support or be used to justify
or support relocation by the custodial parent out of the
immediate area or the State. Electronic communication
between the minor child and the parent may be subject
to supervision as ordered by the court. As used in this
subsection, “electronic communication” means contact,
other than face-to-face contact, facilitated by electronic
means, such as by telephone, electronic mail, instant
messaging, video teleconferencing, wired or wireless
technologies by Internet, or other medium of
communication.

(0

In a proceeding for custody of a minor child of a
service member, a court may not consider a parent’s
past deployment or possible future deployment as the
only basis in determining the best interest of the child.
The court may consider any significant impact on the

124a
best interest of the child regarding the parent’s past or
possible future deployment.

